                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

 Case Number:            I05080043                                                     Page 1 of 1



                In the course of reviewing awards that included participant support in their budgets,
         we found that under one workshop award' grant funds budgeted for participant support had
         been used for laboratory supplies, in violation of NSF rules.2 We inquired whether tde
         required written approval had been obtain for the use of participant support funds for other
         purposes. We also asked about a planned workshop dinner, because if the dinner was
         provided at no cost to the participants, then for each of them the dinner portion of the per
         diem meal allocation should have been deducted from the per diem for that day. Finally, we
         asked whether any fees were charged to workshop participants, and if so how they were
         accounted for.

                In response to our query, the awardee stated that: written approval had not been
         obtained, so the charges for laboratory supplies had been removed; the dinner was not
         provided at no cost to the participants; and no fees were charged to the participants.up&
         request, the university provided a document showing the crediting of the cost of tKe
         laboratory supplies to the grant account. Accordingly, this case is closed.




             NSF Grant Policy Manual (NSF 95-26) l1618.1.b.


                                                                                                        I1
NSF OIG Form 2 (11/02)
